IN THE SUPREME COURT OF THE UNITED STATES

AVERY, AARON KEITH
Petitioner
vs.

No:

20-5850

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
October 14, 2020
cc:
H. MICHAEL SOKOLOW
FIRST ASSISTANT FEDERAL PUBLIC
DEFENDER
OFFICE OF THE FEDERAL PUBLIC
DEFENDER
440 LOUISIANA STREET
SUITE 1350
HOUSTON, TX 77002-1669

